                     AUDIT REPORT
                        13-06




Opportunities Exists to Reduce Costs Associated with Oracle
                    Software Licensing

                     March 29, 2013
Date
March 29, 2013
To
Chief Information Officer
From
Inspector General
Subject
Audit Report – Opportunities Exist to Reduce Costs Associated with Oracle Software
Licensing
Report Number 13-06

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the overall body of the report. We consider management’s comments
responsive to all of the recommendations. The recommendations are resolved and
will remain open for reporting purposes pending our verification of the completion
of the agreed-upon corrective actions.

If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 512-0039.



MICHAEL A. RAPONI
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction ................................................................................................................................................. 1

Results in Brief ............................................................................................................................................ 2

Background .................................................................................................................................................. 4

Results and Recommendations ............................................................................................................ 10

Appendix A – Objectives, Scope, and Methodology ...................................................................... 19

Appendix B – Products with Both Processor and User Licenses ............................................. 21

Appendix C – Management’s Response ............................................................................................ 24

Appendix D - Status of Recommendations ....................................................................................... 26

Appendix E - Report Distribution ........................................................................................................ 27

Major Contributors.................................................................................................................................... 28
                         Office of Inspector General

Report Number 13- 06                                     March 29, 2013

    Opportunities Exists to Reduce Costs Associated with Oracle
                        Software Licensing

Introduction

OIG initiated an audit to identify any major instances of potential duplication and
overlap of Oracle modules and licenses present and if so, what controls could be
strengthened to mitigate the condition. This is a follow-on audit related to work we
conducted of GPO’s Enterprise Architecture in 2012 in which OIG reported that
without a matured Enterprise Architecture, GPO assumes the risk that it will invest
in Information Technology that is duplicative, not well integrated, costly, not
supportive of the agency's strategic goals and mission, or not responsive to
emerging technologies.

In Fiscal Year (FY) 2013, GPO reported it will spend approximately $3.2 million on
Oracle licenses. Today, in addition to an expanded role in Finance and
Administration, GPO uses Oracle to support Business Units such as Plant Operations,
Library Services and Content Management, Security and Intelligent Documents, and
Customer Services. GPO has executed four key contracts with Mythics, an Oracle
resale partner that represents the entire Oracle product line of software, support,
hardware, engineered systems, and appliances.

GPO has long recognized the need to modernize its information systems and replace
unsustainable legacy systems. GPO decided to standardize the Oracle Enterprise
Suite of commercial off-the-shelf (COTS) products as its enterprise software solution
of choice and overall technological foundation to replace its legacy systems. The
Oracle Enterprise Suite is a suite of more than 150 integrated software modules for
financial management, supply-chain management, manufacturing, project systems,
human resources, and sales-force automation. GPO began its initial efforts to
replace legacy systems with the procurement and implementation of three Oracle
Federal Financials modules between 1998 and 2001. Since inception, GPO has
greatly expanded its use of Oracle modules.

GPO’s policy requires that the Chief Information Officer establish operations and
computer support as a part of the security program. Operations planning and
computer support includes software license management. GPO policy also
establishes the Architecture Review Board (ARB). The ARB, in part, reviews
business and system initiatives for compliance with GPO Enterprise Architecture to
support interoperability and data sharing and minimize redundancy.


                                         1
While the areas identified in our report are not intended to represent the full
universe of Oracle licenses, we conducted a systematic examination across GPO to
identify major uses of Oracle licenses. In most cases, GPO provided technical
documentation associated with each license. We examined the major functions of
each Oracle purchase order and how it relates to GPO. We reviewed policies and
procedures in place as of March 2013. We reviewed acquisition reports, purchase
orders, itemized invoices for FY 2013. To gain an understanding of GPO’s processes
related to the purchase of Oracle licenses, we performed a walk-through of
applicable processes with GPO staff. We interviewed key management officials from
the GPO Office of Finance and Administration, the Office of Acquisitions, the Office of
the Chief Information Officer, and the Security and Intelligent Documents Unit
responsible for establishing and monitoring the acquisitions process; and reviewing
and approving the purchases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence that provides a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A.

Results in Brief

The audit disclosed that GPO has worked toward modernizing information systems
in which Oracle products play a key role. However, given that GPO will spend
approximately $3.2 million on Oracle licenses in FY 2013, further analysis is
necessary to ensure all current Oracle licenses and products are needed.

For example, we identified 14 instances where GPO pays for both an application
user license and processor license for the same Oracle products costing $301,547.
We noted GPO uses Oracle on Demand hosting for its e-Passport production to
maintain standby databases, a master repository, and the NetApp Snap Mirror
costing GPO $583,693 when a less expensive alternative may be available. We also
identified excess user licenses and processor licenses, which may result is cost
savings. We attribute these instances to nonexistence of policies and procedures for
software license management and an incomplete inventory of Oracle products that
crosswalks to GPO applications. As a result, GPO may be paying for excess and
duplicate Oracle licenses and products.

Recommendations

The OIG recommended that the Chief Information Officer mitigate risks of
potentially investing in duplicative licenses by (1) developing and implementing
processes, policies and procedures to address goals and objectives of software

                                           2
license management program, (2) conducting an assessment of the current Oracle
software licenses and Oracle products vs. GPO requirements to determine the
correct license and product mix and make the necessary adjustments, and (3)
revising the current inventory listing to include a crosswalk from major Oracle COTS
software products to GPO applications.

Management’s Response

Management concurred with the recommendations and has planned corrective
actions. The complete text of management’s response is in Appendix C.




                                         3
Background

GPO senior managers have long realized that GPO must effectively manage its
portfolio of capital assets, including software licenses, to ensure that scarce public
resources are wisely invested. This includes software licenses in support of in-
house production and procurement services for Congress and federal agencies,
passport production, smart cards, the Federal Digital System (FDsys), the Federal
Depository Library Program (FDLP), financial management, acquisition
management, and human capital management.

GPO has four major Oracle license agreements at a cost of approximately $3.2
million. The environment used by end users for business or other operations is
called a production environment. The four major Oracle license agreements
support GPO’s production environment. The license agreements are illustrated in
Tables 1 below.

 Table 1. Major Oracle Licenses
    Purchase
      Order                                                                                Fiscal Year
     Number                     Purpose                              Service               2013 Cost
    3014792                    Stennis MS                                                     $583,693
                                                          Oracle On Demand (Note 1)
                           Passport Production
    3014770             D.C. Passport Production,           Internal Oracle Database          $680,000
                    Identity Management, and FDsys           Enterprise Edition and
                                                                  Applications
                                                                    (Note 2)
    3015018            Government Printing Office                                           $1,055,827
                                                               Oracle On Demand
                      Business Information System
    3015200         Support for Government Printing         Internal Oracle Database          $921,824
                       Office Business Information           Enterprise Edition and
                            System On Demand                      Applications
    Total Cost                                                                              $3,241,344

 Note 1. On Demand services refers to a software-as-a-service that allows GPO to have Oracle
 applications, databases, and supporting Information Technology infrastructure managed by Oracle. The
 Oracle software is hosted at an Oracle data center in Austin, Texas.

 Note 2. Internal services refer to the Oracle software and Information Technology infrastructure
 managed and hosted by GPO.

The Oracle Enterprise Edition and Applications is a suite of more than 150
integrated software modules for financial management, supply-chain management,
manufacturing, project systems, human resources, and sales-force automation. The
modules vary in size and complexity. The general classifications within the Oracle
enterprise Suite consist of: 1) the Customer Relationship Management module
which covers the Marketing, Sales, and Service functions, 2) the Financials modules
which cover the general ledger and associated financial accounting modules, 3) the
Supply Chain Management module which addresses distribution—getting materials
from suppliers to customers, 4) the Manufacturing modules which affect product

                                                    4
design and manufacture, 5) the Human Resources modules which support the
administration of human capital, such as compensation and training for
organizational needs in terms of hiring, benefits, and reviews of employees, and 6)
the Projects module which provides for various project management activities.

Modernizing GPO’s Information Systems

In an effort to modernize and support GPO’s Enterprise Architecture, GPO acquired
product licenses for use with Oracle applications. GPO began its initial efforts to
replace legacy systems with the procurement and implementation of three Oracle
Federal Financials modules i.e., General Ledger, Accounts Receivables and Fixed
Assets. GPO implemented those three modules between 1998 and 2001.

GPO launched the GPO Enterprise Program in 2004 to replace unsustainable legacy
systems. This major project has been progressively implementing modern
application systems that support GPO business and support units.

In 2007, the Government Printing Office Business Information System (GBIS), as a
continuation of this modernization project, was acquired. This was an additional
acquisition of product licenses. GBIS replaced mainframe software placed into
operation more than 30 years ago. In 2008, GPO acquired additional Business
Objects licenses for use with Oracle applications. Business Objects will provide
seamless reporting functionality from GBIS.

GPO's Oracle financial system–GBIS–went live in May 2009. Also, GPO decided to
standardize its reporting environment using the business intelligence tool Business
Objects. At that time, over 100 reports were developed to bring visibility to all
aspects of the data stored in GBIS. These reports, available in public folders, are
being used to evaluate and address deficiencies.

In 2010, GPO upgraded to a new Oracle application server (WebLogics) in support
of FDsys.

In 2011, GPO pursued the migration of several key legacy FDLP systems. The
migration and modernization of these systems were in support of GPO’s growth and
efficiency in service to Federal depository libraries and the public. At the end of
fiscal 2011, the Library Information System Transformation Project to migrate three
separate legacy systems to one platform was underway. The project utilized Oracle
Enterprise Architecture applications to replace the Depository Distribution and
Information System’s Item Lister functionality in the Library Services and Content
Management business unit.

Oracle was further developed to provide the connection between the National
Finance Center (NFC), GPO's payroll processor, and GPO’s hosted system at Oracle’s
data center.


                                          5
Today, in addition to an expanded role in Finance and Administration, GPO uses
Oracle to support Business Units such as Plant Operations, Library Services and
Content Management, Security and Intelligent Documents, and Customer Services.
GPO uses Oracle General Ledger, Oracle Fixed Assets, Oracle Public Sector Payables,
Oracle Receivables, Oracle Purchasing, Oracle Inventory Management, Oracle Order
Management, Oracle Project (Work-in-progress), and Oracle to support Library
Services.

Select Federal Guidance and Legislation

Clinger-Cohen Act

Congress enacted the Information Technology Management Reform Act of 1996 (known
as the Clinger-Cohen Act 1) to address longstanding problems related to federal
Information Technology management. The Clinger-Cohen Act requires the head of each
federal agency to implement a process that maximizes the value of agency Information
Technology investments and assesses and manages acquisition risks. A key goal of the
Act is to ensure that agencies implement Information Technology projects at acceptable
costs and within reasonable timeframes. The Clinger-Cohen Act assigns to the head of
an executive agency the responsibility to develop a capital planning and investment
control process that will provide for the selection, management, and evaluation of
investments.

Office of Management and Budget (OMB) Circular A-130 (A-130)

OMB Circular A-130 2 requires that agencies establish and maintain a capital planning
and investment control process that links mission needs, information, and information
technology in an effective and efficient manner. A-130 divides the process into the
Select, Control, and Evaluate stages.

GPO Directives

GPO Directive 705.31, “GPO Enterprise Architecture Policy”, dated December 8,
2008, established the ARB. The ARB, in part, reviews business and system initiatives
for compliance with GPO Enterprise Architecture to support interoperability and
data sharing and minimize redundancy. The Chief Information Officer designates the
Chief Architect or the Chief Information Officer’s designee to chair the ARB.
Membership of this standing board includes Operational Managers from Business
Units, Support Organizations, Office of the Chief Information Officer, and
Information Technology Security. Additional members are selected on an as-needed
basis (i.e. subject matter experts, project managers, etc.).



1
  Public Law No. 104-106, Division E, February 10, 1996. The law, initially titled the Information Technology Management Reform
Act of 1996, was subsequently renamed the Clinger-Cohen Act of 1996 in P. L. 104-208, September 30, 1996.
2
  OMB, Management of Federal Information Resources, Circular No.A-130 (Nov. 28, 2000).

                                                               6
GPO Directive 825.33B, “Information Technology Security Program Statement of
Policy,” May 24, 2011, establishes a set of controls to safeguard agency Information
Technology processes and information, and also assigns responsibilities and
accountability to provide reasonable assurance for the protection of system
resources against fraud, waste, abuse, disaster, mismanagement, or compromise.
GPO’s policy, in part, states the Chief Information Officer will establish operations
and computer support as a part of the security program. Operations planning and
computer support will address loading and executing new software; use of system
utility software; authorizations required for system changes and software license
management.

Chief Information Officer Council

In September 1999, the Federal Chief Information Officer Council 3 published the Federal
Enterprise Architecture Framework to provide Federal agencies with a common construct
for their architectures, and facilitate the coordination of system investments among
Federal agencies. The Enterprise Architecture (EA) provides guidance and source
information for requirements analysts, designers, engineers, and test planners to reference
and builds upon management executing their responsibilities. EA is a resource for
managing inventory, routine maintenance, and queries. Analysis of the baseline
architecture can identify opportunities for consolidating network services, floating or site
software licenses, and economies of scale for equipment and services.

Executive Order 13103

Executive Order 13103, Computer Software Piracy, requires that Federal agencies
establish procedures to ensure compliance with established computer software
licensing laws and regulations.

Although not subject to the Clinger-Cohen Act, OMB Circular A-130, and Executive
Orders, GPO generally adopts similar standards and operating procedures because it
is consistent with GPO’s mission and strategic goals.

Internal Control Requirements

The Government Accountability Office (GAO) Standards for Internal Controls in the
Federal Government, November 1999, requires ongoing monitoring in the course of
normal operation. Internal controls are performed continuously and ingrained in an
Agency’s operations. GAO’s standards include regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing
their duties. Those standards require the use of control activities described below:



3
 The Chief Information Officer Council is the principal interagency forum on the
improvement of agency practices related to use of Federal information resources.
                                             7
Control activities are the policies, procedures, techniques, and mechanisms that
enforce management’s directives, such as the process of adhering to requirements
or budget development and execution. They help ensure that actions are taken to
address risks. Control activities are an integral part of an entity’s planning,
implementing, reviewing, and accountability for stewardship of Government
resources and achieving effective results.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, dated
December 21, 2004, requires that managers develop and maintain effective internal
controls. Effective internal controls provide assurance that significant weaknesses
in the design or operation of internal controls that could adversely affect an agency’s
ability to meet its objectives would be prevented or detected in a timely manner.

As a legislative branch agency GPO is not required to follow OMB Circulars,
including Circulars A-123. However, since those Circulars provide a sound basis for
internal controls for any organization, GPO has incorporated the major
requirements of Circulars A-123 in its directives.

Prior Reports Highlighted Risks with Information Technology Investments

We identified two reports that are relevant to this audit. In 2012, OIG conducted an
audit to determine to what extent GPO had assurance that its Enterprise
Architecture was used to guide and constrain ongoing development and support of
GPO’s strategic transformation. We noted that efforts to develop a fully mature
Enterprise Architecture had been underway since 2008. GPO developed and
implemented an Enterprise Architecture policy, created the Enterprise Architecture
Program Office, appointed a Chief Architect, uses an automated tool that contains
reference models to assist in developing an Enterprise Architecture, and from 2008
to 2010 established an ARB. In 2010, GPO performed a self-assessment using GAO’s
framework and determined a maturity level of Stage 4 in the GAO framework. The
highest level of maturity is Stage 6. Stage 4 represents completing and using an
initial Enterprise Architecture version for targeted results.

OIG reported that without a matured Enterprise Architecture, GPO assumes the risk
that it will invest in Information Technology that is duplicative, not well integrated,
costly, not supportive of the agency's strategic goals and mission, or not responsive
to emerging technologies.

In 2004, GAO conducted a review in response to both a mandate requiring GAO to
examine the state of printing and dissemination of public government information
and a congressional request that GAO conduct a general management review of GPO
focusing on the inevitable transformation of GPO. In part, GAO concluded that GPO
did not have an Enterprise Architecture at the time. The Chief Information Officer
was in the process of documenting GPO’s business processes and supporting
Information Technology architecture (the “as-is” enterprise architecture).


                                           8
Enterprise Architecture programs establish roadmaps for as-is and target to-be
architectures, transition plans for affected agency management and investment
decisions coordinated across boards or committees. Such roadmaps include an
agency's capital planning and investment control process.




                                         9
Results and Recommendations

While GPO is making progress on modernization of its information systems and
replacing its unsustainable legacy systems, it could strengthen controls over
management of software licenses. We identified several areas where GPO could
possible reduce costs by analyzing application and processor licenses, develop and
implement policies and procedures to facilitate management of software licenses ,
and crosswalk Oracle products to GPO applications.

Processor vs. Application User License

Oracle products can be licensed by processor or by application user metric. Our
review revealed GPO pays for both application user and processor licenses for the
same Oracle products. If licensing by processor, all processors where the database
is installed and/or running must be licensed. If licensing by application user, the
number of licenses required is generally the total number of actual users accessing
the Database. Table 2 below is an example of paying for both a user license and a
processor license associated with the same Oracle product. Our complete listing can
be found in Appendix B.
    Table 2. Example of Both a User and Processor License for the Same Oracle Product
                                                                                                         Processor
    Oracle Product                              Number of
                          License Type                                Price             Purchase Order    License
    Description                                  Licenses
                                                                                                          Charge
    Oracle Diagnostics
                          Licensed User            2500            $13,464.43              3014770         N/A
    Pack for Database
    Oracle Diagnostics
                          Processor                  20             $2,276.55              3015200       $2,276.55
    Pack
    Oracle Diagnostics
                          Processor                  2               $199.88               3015200       $199.88
    Pack
    Oracle Diagnostic
                          Processor                  20             $3,140.22              3014770       $3,140.22
    Pack for Database


In general, a product license agreement is a software license contract between Oracle and
the user–GPO. The software license grants GPO specific rights to use the software. It
also allows Oracle to continue to own the software.

License types or metrics are selected to reflect the functionality of the product.
Essentially, a license metric determines how the software usage is being measured when
Oracle licenses a product to a customer. Oracle’s technology products are primarily
licensed using an application user metric or a processor metric. An application user is
used in environments where users and/or devices can be easily identified and counted.

The processor metric is mostly used in environments where the software users cannot be
easily identified or counted, such as internet-based applications. The processor metric is
also used when it is more cost effective than application use licenses. All processors
where the Oracle programs are installed and/or running must be licensed.



                                                           10
A comparison of the application user and processor licenses with Oracle products
reveals that an opportunity may exist to reduce the number of licenses. In FY
2013, GPO will pay $301,547 for the potential duplicate licenses.

Commercial Host (Oracle on Demand for e-Passport)

GPO has contracted for hosting services from Oracle Corporation located in Austin,
Texas to maintain standby databases, a master repository, and the NetApp Snap
Mirror since November 2007. While we commend GPO for establishing a baseline
of preparedness for a full range of potential emergencies ensuring the performance
of its essential e-Passport functions, this approach may be a costly alternative to its
alternate operation facility Manassas, Virginia and may not fully recognize that GPO
maintains 1 million blank passports in inventory at any given time. Purchase Order
3014792 provides Oracle on Demand for the following three types of services
related to e-Passport production.

1. Standby Databases
   • Data Guard product used to provide each production (HQ & SPF) facility
      with a “Standby Database”
   • 2 Oracle Technology On Demand Windows Servers hosted in the Federal
      Zone at the Oracle’s Austin Data Center (ADC) communicate with the servers
      at the production facilities.

2. Master Repository
   • Master repository of Passport information that meets the 15 year regulatory
     requirement 1 Production Oracle Technology On Demand Instance.
   • 2 Oracle Technology On Demand Instances on Linux -1 production and 1
     Test Instance.

3. NetApp Snap Mirror: Filers located at each production (HQ & SPF) facility
   communicate with a Filer in the Federal Zone at the ADC and push data for a
   backup of their production data.

In FY 2013, GPO will pay $583,693 for this service. Our audit disclosed that
additional analysis is needed to fully understand alternate Oracle products that
may provide sufficient continuity of operations support, use of GPO’s alternate
operation facility in Manassas, Virginia, and varying quantities of passport
inventory to sustain an interruption in the processing of e-Passports.

Number of Purchased User Licenses

An Oracle user license enables GPO employees to connect devices to Oracle
products. In FY 2013, GPO purchased 2,500 Oracle user licenses under purchase
order number 3014770. A comparison of the number of licenses purchased with



                                          11
the actual number of GPO employees revealed an excess number of licenses. As of
October 10, 2012, GPO’s headcount totaled 1,879 employees.

Our analysis disclosed GPO had more user licenses than actual users. For example,
between December 2012 and February 2013 there were 731 users that regularly
logon to GBIS. Mythics told us that the 2,500 Oracle user licenses represented the entire
GPO employee count at the time of the initial purchase several years ago. Mythics told
us they do not have the GPO requirements detailing the specific need for 2,500 users and
licenses.

A comparison between the 2,500 user licenses and the 731 users utilizing Oracle
GBIS products revealed that additional analysis may be needed. We also noted, an
Oracle license would be required for all WebTA users.

Number of Purchased Processor Licenses

Licensing by processor requires that all processors where the database is installed
and/or running must be licensed. We were told that FDSys is the only external
facing system using Oracle products within GPO. Therefore, the processor licenses
needed for FDSys totals six production processors.

As depicted in Table 3 below, our review of Oracle purchase orders disclosed GPO
has the rights to run the following processors for external users:




                                          12
Table 3. Internal Processor Licenses by Purchase Order and Product
Purchase                                                                            License    Number of     License
 Order                            Oracle Product Description                         Type      Processors    Charge
3015200     Oracle 9i Database, Enterprise Edition                                 Processor       20        $77,052.34
            Oracle Partitioning                                                    Processor       20        $19,263.09
            Oracle Diagnostics Pack                                                Processor       20          $2,276.55
            Oracle Tuning Pack                                                     Processor       20          $1,926.32
            Oracle Change Management Pack                                          Processor       20          $1,926.32
            Oracle Internet Application Server, Enterprise Edition                 Processor       20        $39,176.98
            Oracle iStore                                                          Processor       10        $48,157.70
            Configurator                                                           Processor        8       $115,578.52
            iSupport                                                               Processor        4        $19,263.08
            Oracle Database, Enterprise Edition                                    Processor        2          $7,995.13
            Oracle Diagnostics Pack                                                Processor        2           $199.88
            Oracle Partitioning                                                    Processor        2          $1,998.78
3014770     Oracle Audit Vault Server Processor                                    Processor        4        $10,467.43
            Oracle Audit Vault Collection Agent Listener                           Processor       40          $6,280.45
            Oracle Configuration Management Pack for Database                      Processor        8          $1,256.09
            Oracle Provisioning Pack for Database                                  Processor        8          $1,256.09
            Oracle Advanced Security                                               Processor        8          $4,186.97
            Oracle Real Application Clusters                                       Processor        8          $8,373.95
            Oracle Label Security                                                  Processor        8          $4,186.97
            Oracle Internet Application Server Enterprise Edition                  Processor        8        $16,149.75
            Oracle Diagnostic Pack for Internet Application Server                 Processor        8          $1,354.49
            Oracle Configuration Management Pack for Internet Application Server   Processor        8          $1,354.49
            Oracle Database Enterprise Edition                                     Processor       20        $41,869.72
            Oracle Diagnostic Pack for Database                                    Processor       20          $3,140.22
            Oracle Tuning Pack for Database                                        Processor       20          $3,140.22
            Oracle Change Management Pack for Database                             Processor       20          $3,140.22
            Oracle Configuration Management Pack for Database                      Processor       20          $3,140.22
            Oracle Provisioning Pack for Database                                  Processor       20          $3,140.22
            Oracle Internet Application Server Enterprise Edition                  Processor       20        $40,374.38
            Oracle Diagnostic Pack for Internet Application Server                 Processor       20          $4,740.70
            Oracle Configuration Management Pack for Internet Application Server   Processor       20          $4,740.70
Total                                                                                             436       $497,107.97




                                                                13
Table 4 below depicts the information GPO’s Enterprise Architecture provided
regarding internal Oracle installations and processor usage at GPO. We were told
that some information may be missing.
    Table 4. Internal Processor Usage at GPO
                                                        Production/Test/Development   Number
                            Hostname                             /Unknown             of CPUs
    GPO.GOV\OFREACFORA (172.19.4.30)                              Unknown                2
    GPO.GOV\HQMSONBSDB01 (hqmsonbsdb01.gpo.gov)                Production (old)          2
    GPO.GOV\HQMSONBSDB02 (hqmsonbsdb02.gpo.gov)                Production (old)          2
    GPO.GOV\HQMSORAMC01 (hqmsoramc01.gpo.gov)                     Unknown                2
    GPO.GOV\HQMSORAMC01 (hqmsoramc01.gpo.gov)                     Unknown                2
    GPO.GOV\HQMSONBSFTP01 (hqmsonbsftp01.gpo.gov)                 Unknown                2
    GPO.GOV\HQMSADCM1714 (webta.gpo.gov)                         Production              2
    GPO.GOV\HQMSDDCM1716 (hqmsddcm1716.gpo.gov)                  Production              2
    GPO.GOV\HQMSPROBE01 (172.16.41.12)                           Production              2
    GPO.GOV\HQMSPROBETEST (162.140.96.124)                          Test                 2
    GPO.GOV\HQMSORACLETST01 (162.140.96.211)                        Test                 2
    GPO.GOV\HQVMONBSTEST01 (hqvmonbstest01.gpo.gov)                 Test                 1
    GPO.GOV\HQVMWEBTADB (162.140.96.217)                          Unknown                1
    GPO.GOV\HQVMWEBTADB1 (hqvmwebtadb1.gpo.gov)                   Unknown                1
    GPO.GOV\HQMSORACLECLST2 (162.140.96.77)                         Test                 2
    DATACENTER\FMSNFC02 (fmsnfc02.datacenter.gpo.gov)            Production              2
    DATACENTER\FMSNFC02 (fmsnfc02.datacenter.gpo.gov)            Production              2
    GPO.GOV\HQVMADCM1317 (172.16.43.101)                          Unknown                1
    GPO.GOV\HQVMENTARCH1 (172.16.43.93)                         Development              1
    GPO.GOV\HQVMMSPERQ (hqvmmsperq.gpo.gov)                       Unknown                2
    GPO.GOV\HQMSBCDMFR25 (hqmsbcdmfr25.ofr.gpo.gov)               Unknown                2
    GPO.GOV\HQMSBCDMFR24 (hqmsbcdmfr24.gpo.gov)                     Test                 2
    GPO.GOV\OFREDCORA (ofredcora.ofr.gpo.gov)                    Production              2
    GPO.GOV\HQVMDC51A (hqvmdc51a.gpo.gov)                         Test (old)             1
    GPO.GOV\HQVMDC51 (hqvmdc51.gpo.gov)                        Production (old)          1
    GPO.GOV\HQMSNW70416 (hqmsnw70416.main.gpo.gov)                Unknown                2
    GPO.GOV\HQVMMSPQDB (172.16.43.172)                        Production (new)           2
    GPO.GOV\HQMSONBSDB04 (hqmsonbsdb04.gpo.gov)                  Test (new)              2

    FDsys
    Hostname                                            Production/Test/Development   Number
                                                        /Unknown                      of CPUs
    hqlxfdsyspcmsdb1.gpo.gov                                     Production              2
    hqlxfdsyspcmsdb2.gpo.gov                                     Production              2
    acflxfdsysdb1.gpo.gov                                           COOP                 2
    hqlxfdsystdb1.test.fdsys.gpo.gov                                Test                 2
    hqlxfdsystdb2.test.fdsys.gpo.gov                                Test                 2
    hqlxfdsysddb1.gpo.gov                                       Development              2
    hqlxfdsysddb2.gpo.gov                                       Development              2




                                                 14
     e-Passports
     Hostname                                 Production/Test/Development   Number
                                              /Unknown                      of CPUs
     hqepassprododa1                                   Production              6
     hqepassprododa2                                   Production              6
     hqepasstestoda1                                   Production              6
     hqepasstestoda2                                      Test                 6
     hqmsencp01                                        Production              16
     hqmsencp02                                        Production              16
     hqmsoem01                                         Production              8
     spfepassoda1                                      Production              6
     spfepassoda2                                      Production              6
     spfmsencp01                                       Production              16
     spfmsoem01                                        Production              8
     Total                                                                    163


A comparison between the 436 internal processor licenses and the 163 internal
processor usage at GPO reveals additional analysis may be need.

Standard Operating Procedures Should be Developed and Software Inventory
Should be Cross Walked to GPO Applications

In part, the above conditions occurred because standard operating procedures were
not developed and software inventory was not cross walked to GPO applications.

Software License Management Procedures

GPO Directive 825.33B, “Information Technology Security Program Statement of
Policy”, dated May 24, 2011, sets forth GPO’s policy regarding software license
management. GPO’s policy states the Chief Information Officer will establish
operations and computer support as a part of the security program. The directive
also states that “operations planning and computer support will address loading
and executing new software; use of system utility software; authorizations required
for system changes and software license management.”

However, GPO has not yet developed procedures for ensuring this is carried out. For
example, among other things, GPO does not cross walk software licensing
information. In addition, GPO does not have a software management tool that
performs license tracking and inventory GPO-wide.

GPO is responsible for developing and implementing an enterprise-level plan for
conducting periodic audit checks to ensure it is in compliance with software license
agreements. Executive Order 13103, Computer Software Piracy, requires that
Federal agencies establish procedures to ensure compliance with established
computer software licensing laws and regulations. Executive Order 13103 was
signed by the President on September 30, 1998. It directed, among other things, that
each executive agency adopt procedures to ensure that it does not acquire,

                                        15
reproduce, distribute, or transmit computer software in violation of applicable
copyright laws; and each executive agency establish procedures to ensure that it
uses only computer software not in violation of applicable copyright laws.

By not having procedures in place to support its policy, GPO is at risk that it will not
be in compliance with software licensing terms and/or may purchase excess
licenses and products.

Inventory of Oracle COTS Software Products

Generally, GPO maintains and updates its systems inventory, including agency and
contractor systems. While, GPO maintains some Oracle products in its inventory, a
detailed inventory of Oracle products and their support of GPO programs and
operations (i.e. a crosswalk from Oracle products to GPO applications) was missing.

The Federal Information Security Management Act of 2002 (FISMA) requires that
agencies have in place an information systems inventory. According to FISMA, the
head of each agency shall develop and maintain an inventory of major information
systems operated by or under the control of such agency. The identification of
information systems in an inventory under this subsection shall include an
identification of the interfaces between each such system and all other systems or
networks, including those not operated by or under the control of the agency. The
inventory should contain the following information for each piece of hardware and
software in the organization:

•   Description of asset
•   Manufacturer
•   Model number
•   Date of purchase or lease
•   Date of deployment
•   Date of last upgrade performed
•   Record of service
•   Maintenance and repairs performed
•   Customization or modifications performed
•   Disposition (recycle, disposal, resale)

Also, GPO’s current inventory did not identify interfaces between Oracle
contractor-managed systems and GPO internal networks as required by FISMA.
Unidentified Oracle products and interfaces could pose significant risks to GPO
operations if not properly evaluated and mitigated by appropriate compensating
controls. As a result, GPO cannot be sure that it has a complete and accurate
inventory of its systems.




                                           16
Recommendations

To mitigate risks of potentially investing in duplicative licenses, the OIG
recommended that the Chief Information Officer:

   1. Develop and implement processes, policies and procedures to address
      goals and objectives of software license management program.

Management’s Response

Concur. The GPO Office of Information, Technology, and Systems (IT&S) will
document and assign license management duties for each of its component divisions
and a single IT&S lead will be established to monitor and coordinate license
management activities while validating planned renewals or purchase (see
Appendix C).

Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open for reporting purposes pending
the completion of the proposed action.

   2. Conduct a cost effectiveness assessment of the current Oracle software
      license and Oracle products vs. GPO requirements to determine the
      correct license and product mix and make the necessary adjustments.

Management’s Response

Concur. IT&S will conduct a license audit for all Oracle products.

Evaluation of management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open for reporting purposes pending
the completion of the proposed action.

   3. Revise the current inventory listing to include a crosswalk from major
      Oracle COTS software products to GPO applications.

Management’s Response

Concur. IT&S will develop a crosswalk to illustrate how each licensed feature of the
Oracle product line maps to usage by the Commercial Off-The-Shelf and custom
developed applications to ensure that GPO is not paying for unnecessary features.


                                           17
Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open for reporting purposes pending
the completion of the proposed action.




                                       18
Appendix A - Objectives, Scope, and Methodology

We performed the audit from December 2012 through March 2013 at the GPO
Central Office in Washington, D.C. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence that will
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Objectives

We conducted this audit to identify any major instances of potential duplication and
overlap of Oracle modules and licenses present and if so, what controls could be
strengthened to mitigate the condition.

Scope and Methodology

To meet our objectives we performed the following:

   •   Reviewed Federal and GPO software licensing policies and procedures
       including the Information Technology Management Reform Act of 1996; OMB
       Circular A-130; OMB Circular A-123; Federal Chief Information Officer
       Council publication: Executive Order 13103; GAO’s Standards for Internal
       controls in the Federal Government; GPO Directive 705.31; GPO Directive
       825.33B; and applicable standard operating procedures.

   •   We interviewed key management officials from the GPO Office of Finance and
       Administration, the Office of Acquisitions, the Office of the Chief Information
       Officer, and the Security and Intelligent Documents Unit responsible for
       establishing and monitoring the acquisitions process; and reviewing and
       approving the purchases.

   •   We reviewed prior OIG and GAO audit reports.

   •   We analyzed the number of processor and user application licenses,
       commercial hosting activities, conducted an Oracle access utilization
       analysis, and processor data.

   •   Examined GPO’s Oracle purchase order numbers 3014792, 3014770,
       3015018, and 3015200 to identify Oracle products and license agreements.




                                         19
Appendix A - Objectives, Scope, and Methodology


Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures management implemented to
reasonably ensure that software license management program met GPO’s
objectives.

Validity and Reliability of Data – Policies and procedures management implemented
to reasonably ensure that valid and reliable data are obtained, maintained, and fairly
disclosed in reports (See Computer-generated Data below).

Compliance with Laws and Regulations – Policies and procedures management
implemented to reasonably ensure that resource use is consistent with laws and
regulations.

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are in the report narrative.
Implementing the recommendations in this report should improve those
management control deficiencies.

Computer-generated Data

We relied on computer-generated data during this audit. Specifically, we relied on
the internal processor usage report provided by GPO. We assessed the reliability of
the data but did not test general system and application controls. In order to test
the reliability of the data on the report, we attempted to compare the host names
with Oracle applications and processor licenses. As a result of GPO’s lack of
supporting documentation, for the most part we were unable to perform those tests.
Therefore, we determined that the data were unreliable but nevertheless usable to
meet our audit objectives and support our conclusions.




                                         20
   Appendix B – Products with Both Processor and User Licenses

                                 License     Number of                 Purchase      Processor
Oracle Product Description                                  Price
                                 Type         Licenses                  Order     License Charge
                                 Licensed
Oracle Advanced Security                       2500      $30,049.89    3014770
                                 User
Oracle Advanced Security         Processor      8         $4,186.97    3014770      $4,186.97
Oracle Change Management
                                 Processor      20        $1,926.32    3015200      $1,926.32
Pack
Oracle Change Management         Licensed
                                               2500       $9,306.14    3014770
Pack for Database                User
Oracle Change Management
                                 Processor      20        $3,140.22    3014770      $3,140.22
Pack for Database
Oracle Configuration
                                 Licensed
Management Pack for                            2500       $9,189.70    3014770
                                 User
Database
Oracle Configuration
Management Pack for              Processor      8         $1,256.09    3014770      $1,256.09
Database
Oracle Configuration
Management Pack for              Processor      20        $3,140.22    3014770      $3,140.22
Database
Oracle Configuration
                                 Licensed
Management Pack for                            2500       $7,850.58    3014770
                                 User
Internet Application Server
Oracle Configuration
Management Pack for Internet     Processor      8         $1,354.49    3014770      $1,354.49
Application Server
Oracle Configuration
Management Pack for Internet     Processor      20        $4,740.70    3014770      $4,740.70
Application Server
Oracle Database Enterprise       Licensed
                                               2500      $134,081.12   3014770
Edition                          User
Oracle Database Enterprise
                                 Processor      20       $41,869.72    3014770     $41,869.72
Edition
Oracle Database, Enterprise
                                 Processor      2         $7,995.13    3015200      $7,995.13
Edition
Oracle 9i Database, Enterprise
                                                         $77,052.34                $77,052.34
Edition                          Processor      20
Oracle Diagnostics Pack for      Licensed
                                               2500       $7,850.58    3014770
Internet Application Server      User
Oracle Diagnostic Pack for
                                 Processor      8         $1,354.49    3014770      $1,354.49
Internet Application Server
Oracle Diagnostic Pack for
                                 Processor      20        $4,740.70    3014770      $4,740.70
Internet Application Server


                                                21
    Appendix B – Products with Both Processor and User Licenses

                               License     Number of                Purchase      Processor
Oracle Product Description                               Price
                               Type         Licenses                 Order     License Charge
Oracle Diagnostics Pack for    Licensed
                                             2500      $13,464.43   3014770
Database                       User
Oracle Diagnostics Pack        Processor      20       $2,276.55    3015200      $2,276.55
Oracle Diagnostics Pack        Processor       2        $199.88     3015200       $199.88
Oracle Diagnostic Pack for
                               Processor      20       $3,140.22    3014770      $3,140.22
Database
Oracle Identity and Access     Licensed
                                             2500      $10,661.33   3014770
Management Suite               User
Oracle Identity Management
                               Connector      1        $2,093.48    3014770      $2,093.48
Connector - CA Top Secret
Oracle Identity Management
                               Connector      1        $2,093.48    3014770      $2,093.48
Connector –E-Business
Oracle Internet Application    Licensed
                                             2500      $76,567.58   3014770
Server Enterprise Edition      User
Oracle Internet Application
                               Processor      8        $16,149.75   3014770     $16,149.75
Server Enterprise Edition
Oracle Internet Application
                               Processor      20       $40,374.38   3014770     $40,374.38
Server Enterprise Edition
Oracle Internet Application
                               Processor      20       $39,176.98   3015200     $39,176.98
Server, Enterprise Edition
                               Licensed
Oracle Label Security                        2500      $30,049.89   3014770
                               User
Oracle Label Security          Processor      8        $4,186.97    3014770      $4,186.97
                               Licensed
Oracle Partitioning                          2500      $31,989.90   3014770
                               User
Oracle Partitioning            Processor      20       $19,263.09   3015200     $19,263.09
Oracle Partitioning            Processor       2       $1,998.78    3015200      $1,998.78
Oracle Provisioning Pack for   Licensed
                                             2500      $9,189.70    3014770
Database                       User
Oracle Provisioning Pack for
                               Processor      8        $1,256.09    3014770      $1,256.09
Database
Oracle Provisioning Pack for
                               Processor      20       $3,140.22    3014770      $3,140.22
Database
Oracle Real Application        Licensed
                                             2500      $60,100.23   3014770
Clusters                       User
Oracle Real Application
                               Processor      8        $8,373.95    3014770      $8,373.95
Clusters
Oracle Tuning Pack             Processor      20       $1,926.32    3015200      $1,926.32




                                              22
   Appendix B – Products with Both Processor and User Licenses

                             License                             Purchase   Processor License
Oracle Product Description               Licenses      Price
                             Type                                 Order          Charge
Oracle Tuning Pack for       Licensed
                                          2500        $9,840     3014770
Database                     User
Oracle Tuning Pack for
                             Processor     20        $3,140.22   3014770       $3,140.22
Database
                                                                  TOTAL       $301,547.75




                                                23
Appendix C – Management’s Response




                             24
Appendix C – Management’s Response




                             25
Appendix D - Status of Recommendations


 Recommendation           Resolved   Unresolved   Open/ECD*   Closed
       1                     x                     9/30/13
       2                     x                     9/30/13
       3                     x                     9/30/13
*Estimated Completion Date.




                                        26
Appendix E – Final Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       27
Major Contributors to the Report

Daniel Rose, Lead Information Technology Specialist




                                       28
